2311 Douglas Street
Omaha, Nebraska 68102-1214

CO KLE

Legal Briefs E-Mail Address:

contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-825
FEDERAL TRADE COMMISSION,
Petitioner,

Vv.
CREDIT BUREAU CENTER, LLC and MICHAEL BROWN,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE STATES OF ILLINOIS, ALASKA, COLORADO,
CONNECTICUT, DELAWARE, HAWAII, IDAHO, INDIANA, IOWA, MAINE, MARYLAND, MASSACHUSETTS,
MICHIGAN, MINNESOTA, NEVADA, NEW JERSEY, NEW MEXICO, OREGON, SOUTH DAKOTA, VERMONT,
VIRGINIA, WISCONSIN, THE DISTRICT OF COLUMBIA, AND THE COMMONWEALTH OF PUERTO RICO AS
AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JANE ELINOR NOTZ* KWAME RAOUL
Solicitor General Illinois Attorney General
SARAH A. HUNGER 100 West Randolph Street
Deputy Solicitor General Chicago, Illinois 60601
CARSON R. GRIFFIS (312) 814-5376

Assistant Attorney General

*Counsel of Record

Subscribed and sworn to before me this 30th day of January, 2020.

jnotz@atg.state.il.us

am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
Generai Notary
State of Nebraska

My Commission Expires Nov 24, 2020

 

hes, Cblite Quduwvh, edie

Notary Public

Affiant 39282
 

 

Attorneys for Petitioner

Alden Francis Abbott Federal Trade Commission 202-326-2505
Counsel of Record 600 Pennsylvania Avenue NW
Washington, DC 20580

aabbott@ftc.gov

Party name: Federal Trade Commission

 

Attorneys for Respondents

Stephen R. Cochell The Cocheli Law Firm, P.C. 346-800-3500
Counsel of Record 5850 San Felipe
Houston, TX 77057

srcochell@gmail.com

Party name: Credit Bureau Center, LLC, et al.

 

 
